                           UNITED STATES DEPARTMENT OF EDUCATION 

                                OFFICE OF INSPECTOR GENERAL 

                                                Chicago/Kansas City Audit Region 


                   111 N. Canal St. Ste. 940                                     8930 Ward Parkway, Ste 2401
                   Chicago, IL 60606-7297                                        Kansas City, MO 64114-3302
                   Phone (312) 886-6503                                          Phone (816) 268-0500
                   Fax (312) 353-0244                                            Fax (816) 823-1398



                                                      November 6, 2006

                                                                               Control Number ED-OIG/AOSG0018

Mr. Michael P. Flanagan
State Superintendent of Public Instruction
Michigan Department of Education .
608 W. Allegan Street
P.O. Box 30008
Lansing, MI 48909


Dear Mr. Flanagan:

This Final Audit Report, titled Michigan Schools' Implementation ofSchoolwide Plans Under
the No Child Left Behind Act of2001, presents the results of our audit. Our audit objectives were
to determine whether (1) the Michigan Department of Education (NIDE) and local educational
agencies (LEAs) had adequate processes in place to ensure that schoolwide schools had
schoolwide plans that included all required elements and that these schools implemented their
schoolwide plans, (2) school wide plans for selected schools included all required elements, and
(3) the selected schools implemented the elements included in their schoolwide plans. Our audit
covered the 2005-06 school year (July 1,2005, through June 30,2006).

In its comments to the draft report, MDE concurred with our finding and recommendations. The
comments are summarized at the end of the finding. The full text of MDE' s comments on the
draft report is included as an Attachment to the report.




                                                      BACKGROUND 


The Elementary and Secondary Education Act of 1965, as amended by the No Child Left Behind
Act of 2001 (the Act), allows schools in an area with a poverty level of 40 percent or more, or in
which at least 40 percent of enrolled students are from low-income families, to operate
schoolwide programs. Schools operating schoolwide programs may use funds from Title I, Part
A, along with other federal, state, and local funds, to upgrade the entire educational program in a
school in order to improve the academic achievement of all students, particularly the lowest­
achieving students.


          Our mission is to promote the efficiency.   ~ffectiveness,   and integrity of the Department's programs and operatio/l.\·.
                                                                                                        Final Report
ED-OIG/A05GOOI8                                                                                         Page 2 of 12
According to Section 1114(b)(2)(A) of the Act and 34 C.F.R. § 200.27(a)(3),1 the school must
develop a comprehensive schoolwide plan in consultation with the LEA, or another technical
assistance provider, and the school community. The comprehensive plan should be based on
data from a comprehensive needs assessment or, for schools that have operated schoolwide
programs for an extended period oftime, based on the state's annual assessments and other
indicators of academic achievement. The comprehensive plan must (1) describe how the school
will implement the schoolwide program components listed under 34 C.P.R. § 200.28,
(2) describe how the school will use resources to implement the school wide program
components, (3) include a list of state educational agency, LEA, and other federal programs for
which the school will consolidate funds to use in its schoolwide program, and (4) describe how
the school will provide individual student academic assessment results to parents.

According to 34 C.P.R. § 200.28, a schoolwide program must contain the following
components: 2

• 	 Schoolwide reform strategies that (1) provide opportunities for students to meet proficient
    and advanced state achievements standards; (2) use effective methods of instruction that are
    based on scientifically based research that strengthen the school's core academic program,
    provide an enriched and accelerated curriculum, increase the amount and quality of learning
    time, include strategies for meeting the educational needs of historically underserved
    populations, and are consistent with, and are designed to implement, state and local
    improvement plans; and (3) include strategies that address the needs of all the students in the
    school, particularly the needs of the lowest achieving students, and address how the school
    will determine if such needs have been met.

• 	 Strategies to provide instruction by highly qualified teachers, including strategies to (1)
    attract highly qualified teachers, (2) provide ongoing professional development for teachers,
    principals, and paraprofessionals, (3) devote sufficient resources to carry out professional
    development activities, and (4) include teachers in decisions regarding academic
    assessments.

• 	 Strategies to involve parents in the planning, review, and improvement of the schoolwide
    program, including having a parental involvement plan for the school. 3

• 	 Activities to ensure that students who experience difficulty reaching proficient or advanced
    levels on academic assessments are provided with additional support.

• 	 Plans for assisting preschool children in the transition from early childhood programs to the
    schoolwide program.




1 Allregulatory citations are as of July 1,2005. 

2 Section 1114(b)( 1) of the Act contains these components. 

3 Our review of parental involvement strategies focused only on strategies to involve parents in the planning, review, 

and improvement of the school wide program. 

                                                                                                        Final Report
ED-OIG/A05G0018                                                                                         Page 3 of 12
The u.s. Department of Education allocated approximately $424 million in Title I funds to MDE
for the 2005-06 school year. In Michigan, 902 schools in 250 LEAs that received Title I funds
operated schoolwide programs during the 2005-06 school year.




                                             AUDIT RESULTS 



We found that (1) MDE and the four LEAs we reviewed4 generally had adequate processes in
place to ensure that schools implemented the elements included in their schoolwide plans but did
not ensure that schoolwide plans included all required elements, (2) the four schools we
reviewed did not include all required elements in their schoolwide plans, and (3) the four schools
we reviewed implemented the elements included in their schoolwide plans.

All four of the schoolwide plans we reviewed included a description of how the school would
use resources to implement components in its schoolwide program, schoolwide reform strategies,
and strategies to provide additional support to low-achieving students. In addition, the
schoolwide plan for the selected school in Grand Rapids included plans for assisting preschool
students in the transition from early childhood programs to the school wide program. However,
school wide plans for all selected schools did not include all required elements.

FINDING - MDE and Selected LEAs Did Not Ensure Schoolwide Plans Included
          All Required Elements

MDE and the LEAs we reviewed did not ensure that schoolwide plans included all elements
required by Section 1114(b)(2)(A) of the Act (See the table on Page 4):

    • 	 The selected school at three of the four LEAs we reviewed (Albion, Grand Rapids, and
        Taylor) had a schoolwide plan that did not include a description of how the school would
        implement the components listed in 34 c.F.R. § 200.28. Specifically, (1) all three
        school wide plans did not include strategies to provide instruction by highly qualified
        teachers;6 and (2) schoolwide plans for the selected schools in Albion and Taylor did not
        include strategies to involve parents in the planning, review, and improvement of the
        school wide program.
    • 	 The school at each of the four LEAs we reviewed had a schoolwide plan that did not 

        include a description of how the school would provide individual student academic 

        assessment results to the parents of students who participated in academic assessments. 


4 We reviewed Inkster Public Schools (Inkster), Albion Public Schools (Albion), Grand Rapids Public Schools
(Grand Rapids), and Taylor School District (Taylor).
5 The school we reviewed in Grand Rapids was the only elementary school we visited. Therefore, it was the only
school required to include plans for assisting preschool students in the transition from early childhood programs to
the schoolwide program.
6 In each case where a school failed to meet this requirement, the deficiency was that it did not have in its
school wide plan a strategy to attract highly qualified teachers, which is required by Section 1114(b)(l)(E) of the Act
and 34 C.F.R. § 200.28(b)(l).
                                                                                                        Final Report
 ED-OIG/A05G0018                                                                                        Page 4 of 12

                    Schoolwide Plan Elements Included in Each Schoolwide Plan
                                                                                                        Taylor LEA-
                                            Inkster            Albion LEA-         Grand Rapids         Charles E.
                                            LEA-               Washington          LEA-Campus           Brake
Required Element                            Inkster            Gardner             Elementary           Middle
(See BACKGROUND Section)                    High School        Middle School       School               School
1) Components Listed Under 34
   C.F.R. § 200.28:
    School wide Refonn Strategies           Yes                Yes                 Yes                  Yes
    Instruction by Highly Qualified         Yes                No                  No                   No
    Teachers
    Parental Involvement in Program         Yes                No                  Yes                  No
    Planning, Review, and
    Improvement
    Additional Support                      Yes               Yes                  Yes                  Yes
    Transition For Preschool Students       NA                NA                   Yes                  NA
2) Resources to Implement                   Yes               Yes                  Yes                  Yes
   Components
3) Consolidating Program Funds              NA7               NAT                  NA'                  NAT
4) Providing Academic Assessment            No                No                   No                   No
   Results to Parents

 Though the selected schools did not include all required elements in their schoolwide plans, we
 concluded that the LEAs generally had processes in place that ensured that the objectives
 referred to by most of the required elements were carried out by each selected school. In
 addition to implementing all elements included in their schoolwide plans, schools also
 implemented some elements not included in their schoolwide plans. Specifically, (1) all selected
 schools provided parents with individual student academic assessment results and (2) the
 selected school in Taylor implemented strategies to provide instruction by highly qualified
 teachers and involved parents in the planning, review, and improvement of the school wide
 program.

According to Section 1114(b)(1) of the Act and 34 c.F.R. § 200.28, a schoolwide plan must
include, among other things, strategies to provide instruction by highly qualified teachers and
strategies to involve parents in the planning, review, and improvement of the schoolwide plan.
In addition, Section 1114(b)(2)(A)(iv) of the Act and 34 c.F.R. § 200.28(c )(2)(ii) require a
schoolwide plan to describe how a school will provide individual student academic assessment
results to parents.

MDE relied primarily on LEAs to monitor schoolwide plans to ensure that they included all
required elements because it generally did not receive or review school wide plans 8 and
conducted only a limited number of on-site reviews. However, MDE did not (1) provide specific

7 A school is required to list the program funds it will consolidate in the school wide program only if it chooses to 

consolidate funds. Because the school did not consolidate funds, this element was not applicable. 

8 MDE recei ved the school improvement plans for schools identified for school improvement, corrective action, or 

restructuring, but did not review these plans to ensure they included all required elements of a school wide program. 

MDE required these schools to have one school plan that included the required school wide plan elements. 

                                                                                                Final Report
ED-OIG/A05G0018                                                                                 Page 5 of 12
guidance to LEAs on how to monitor schoolwide plans or (2) review LEAs' policies and
procedures for monitoring the required elements of their schoolwide plans. At the time of our
fieldwork, MDE had conducted site reviews at only eight LEAs during the 2005-06 school year.
Though MDE reviewed schoolwide plans during the site reviews, it only reviewed the
schoolwide plans for inclusion of the first element in the above table. It did not review the
schoolwide plans for inclusion of the other three elements. Not ensuring that schoolwide plans
include all required elements could potentially lead to decreased implementation of required
schoolwide plan elements and school wide plans that are less likely to improve the academic
achievement of all students.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education require
MDEto:

1.1 	 Ensure that all four schools we reviewed revise their s,choolwide plans to include all
      required elements.

1.2 	 Improve its monitoring process by (1) reviewing, during its site visits to LEAs, all elements
      of the LEAs' schoolwide plans to determine whether (a) each LEA's policies and
      procedures ensure that schoolwide plans include all the required elements, and (b) those
      policies and procedures are being implemented; and (2) developing and implementing an
      annual desk review schedule of schoolwide plans for schools selected by MDE to
      determine whether they include all required elements. As part of its site visits and desk
      reviews, MDE should also review plans for inclusion of the school improvement plan
      components required by Section 1116(b)(3)(A) of the Act. 9

1.3 	 Provide guidance to all LEAs in Michigan on how to monitor schoolwide plans for
      inclusion and proper implementation of all required elements.

Auditee Comments

MDE concurred with our finding and recommendations. In response to our recommendations,
MDE stated the following:

• 	 It will visit each of the four LEAs visited during tpe audit to ensure that school wide plans
    include all required components.

• 	 It will develop and implement a comprehensive plan for planning, implementing, and
    annually reviewing schoolwide plans by (1) using a revised on-site review document that
    includes all required components, (2) determining whether evaluation procedures are in place



9Review of school improvement plan components was not within the scope of our audit, so we did not determine
whether the school plans included all required school improvement components. However, because MDE requires
schools to have one plan that includes both school improvement and school wide components, MDE should review
plans for both sets of required components during its review process.
                                                                                     Final Report
ED-OIGIA05GOO18                                                                      Page 6 of 12
   to ensure that schoolwide plans are current and being implemented, and (3) conducting desk
   reviews, beginning in the fall of 2007, of 25 percent of the schoolwide schools in the state.

• 	 It will provide guidance to LEAs on how to monitor schoolwide plans by (1) providing
    training for facilitators for the schoolwide year of planning, (2) developing a comprehensive
    set of materials for LEAs to use during the annual review of their schoolwide plans, and (3)
    conducting a mandatory technical assistance workshop for existing schoolwide schools on
    required plan components and timeframes for plan review and revision.




                 OBJECTIVES, SCOPE, AND METHODOLOGY 



Our audit objectives were to determine whether (1) MDE and LEAs had adequate processes in
place to ensure that schoolwide schools had schoolwide plans that included all required elements
and that these schools implemented their schoolwide plans, (2) schoolwide plans for selected
schools included all required elements, and (3) the selected schools implemented the elements
included in their schoolwide plans. Our audit covered the 2005-06 school year (July 1,2005,
through June 30, 2006).

To achieve our objectives, we interviewed officials and reviewed documents from MDE and the
four LEAs and schools we reviewed. For MDE, we (1) gained an understanding of policies and
procedures for ensuring that schoolwide plans included all required elements and were being
implemented and (2) reviewed guidance it provided to LEAs and schools regarding schoolwide
plans. For each LEA selected, we gained an understanding of how the LEA (1) helped its
schools develop and implement schoolwide plans and (2) monitored and evaluated schoolwide
plans. The documents we reviewed included:

   1. 	 MDE's organizational chart;
   2. 	 Prior audit reports, including MDE's Single Audit Act report, Financial Audit Including
        the Provisions ofthe Single Audit Act ofthe Department ofEducation, for the period
        October 1, 2001, through September 30,2003;
   3. 	 Guidance MDE provided to LEAs regarding schoolwide programs, including its 

        Managing Schoolwide Programs packet; 

   4. 	 Documentation related to MDE's monitoring reviews of LEAs and schools, including its
        On Site Review District Study Guide, On Site Review Building Study Guide, and on-site
        monitoring reports;
   5. 	 Schoolwide plans for each selected school for inclusion of the required elements listed in
        Section 1114(b)(2)(A) of the Act and 34 C.F.R. § 200.27(a)(3), including the components
        listed in 34 C.F.R. § 200.28; and
   6. 	 Documentation for each selected school related to the implementation of required 

        schoolwide plan elements. 


We selected LEAs and schools to visit. We identified the universe of LEAs in Michigan that had
at least one school (1) identified for improvement or otherwise showing weak academic results
                                                                                                      Final Report
ED-OIG/A05G0018                                                                                       Page 7 of 12
for both the 2004-05 and 2005-06 school years and (2) that operated a schoolwide program
during both the 2004-05 and 2005-06 school years. By including only those schools that
operated schoolwide programs during both of these school years, we ensured that our review
included only schools that had school wide programs at the time of our review and had completed
one full year of their schoolwide programs. From this universe of 26 LEAs, we judgmentally
selected 4 LEAs based on Title I allocations. We selected one large LEA (Grand Rapids), two
medium LEAs (Inkster and Taylor), and one small LEA (Albion). For each of these four LEAs,
we selected one school meeting requirements (1) and (2) above, ensuring that we selected at least
one elementary, middle, and high school. For Grand Rapids, Inkster, Taylor, and Albion, we
selected Campus Elementary School, Inkster High School, Charles E. Brake Middle School, and
Washington Gardner Middle School, respectively.lO

We performed our fieldwork at the offices of MDE in Lansing, Michigan; the four selected
LEAs and schools in Michigan; and our offices in Chicago, lllinois, and Kansas City, Missouri.
We discussed the results of our audit with MDE officials on August 17,2006. We did not use
computer-processed data to achieve our audit objectives. Our audit was performed in accordance
with generally accepted government auditing standards appropriate to the scope of review
described above.




                                  ADMINISTRA TIVE MATTERS 



Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:

                                    Henry Johnson
                                    Assistant Secretary
                                    U.S. Department of Education
                                    Office of Elementary and Secondary Education
                                    400 Maryland A venue, SW
                                    Washington, D.C. 20202

It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on'the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.

10 To fit the criteria identified above, we judgmentally selected one of five schools in Grand Rapids and randomly
selected one of two schools in Taylor. Inkster and Albion only had one school that fit our criteria.
                                                                                     Final Report
ED-OIG/A05G0018                                                                      Page 8 of 12


In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.




                                             Regional Inspector General
                                              for Audit

Attachment
                                                                                   Attachment
ED-OIGIA05GOO 18                                                                   Page 9 of 12




           ATTACHMENT: MDE Comments to the Draft Report
The following three pages are MDE's comments to the draft report. The final report finding was
unchanged. However, we combined Recommendation 1.4 with Recommendation 1.2 in the final
report.
                                                                                                Attachment
       ED-OIG/A05GO018                                                                         Page lOof 12



                                              STATE OF MICHIGAN
                                                                                               MICHIGAN~
                                      DEPARTMENT OF EDUCATION
                                                    LANSING                                    Educati~
                                                                                              MICHAEL P. FLANAGAN
JENNIFER M. GRANHOLM                                                                            SUPERINTENDENT OF
      GOVERNOR                                                                                  PUBLIC INSTRUCTION


       September 20, 2006


       Mr. Richard J. Dowd 

       Regional Inspector General for Audits 

       111 l\Jorth Canal Street, Suite 940 

       Chicago, IL 60606-7297

       Dear Mr. Dowd:

       The Michigan Department of Education acknowledges receipt of the draft audit report,
       Michigan Schools'Implementation of Schoo/wide Plans Under the No Child Left Behind Act of
       2001, received August 29, 2006. The staff in the Office of School Improvement, Field
       Services Unit, has prepared the response to the findings and recommendations included in
       this report.

       The audit of Title I schoolwide plans, and the process for the development and
       implementation of the plans, provided valuable information for review and improvement of
       existing procedures within the state. The implementation of these changes is already
       underway, and we anticipate that the recommendations will improve the quality of these
       programs in the schools in Michigan.

       The staff would like to extend their appreciation to William Bennett and Kathryn Carey who
       worked on this project for their consistent effort to assist Michigan with the audit content
       and review.

       If there are any additional questions or information needed for this audit document, please
       feel free to advise us so that we can address those issues appropriately. The Field Services
       Unit may be contacted at 517-373-4588 for any additional questions.

       Sincerely,

       /s/
       Michael P. Flanagan 

       Superintendent of Public Instruction 


       Attachment


                                           STATE BOARD OF EDUCATION 


                         KATHLEEN N. STRAUS - PRESIDENT. JOHN C. AUSTIN VICE PRESIDENT 

                       CAROLYN L. CURTIN SECRETARY. MARIANNE YARED MCGUIRE TREASURER 

                              NANCY DANHOF NASBE DELEGATE. ELIZABETH W. BAUER 

                                     REGINALD M. TURNER. EILEEN LAPPIN WEISER 


                        608 WEST ALLEGAN STREET. P.O. BOX 30008 • LANSING, MICHIGAN 48909 

                                       www.michigan.gov/mde • {517} 373·3324 

                                                                                       Attachment
ED-OIG/A05G0018                                                                       Page 11 of 12
Control Number: 	        ED-OIGjAOSG0018

Subject: 	               Audit of Michigan Schools' Implementation of Schoolwide Plans Under
                         the No Child Left Behind Act of 2001

Date: 	                  August 24, 2006

The Michigan Department of Education accepts the findings of Michigan Schools'
Implementation of Schoo/wide Plans Under the No Child Left Behind Act of 2001 as reported
by the Office of the Inspector General, August 24, 2006. The Department plans to initiate
the following corrective actions in response to the specific findings from this audit.

Finding - MDE and selected LEAs did not ensure schoolwide plans included all
required elements

       • 	 The Field Services Unit will create comprehensive tools to assist schools with
           development of schoolwide plans, including all required elements.
       • 	 Technical assistance materials and workshops will be conducted in the spring for
           all existing schoolwide building school improvement teams.
       • 	 All facilitators for the schoolwide year of planning will participate in training to
           ensure that all new schools include all required components in the development
           of their plan.

In response to the recommendations, the IVlichigan Department of Education has discussed
ways to implement these recommendations beginning this fall. The Field Services staff, of
the Office of School Improvement, has already developed specific materials to address some
of the areas identified in the recommendations. The Field Services Unit is also revising the
procedures to provide technical assistance to districts with schoolwide programs and to
increase the quality of the assistance given during the year of planning to become a
schoolwide school.

Recommendations
The Michigan Department of Education appreciates the scope of the recommendations and
their intent to improve the quality of school wide programs within the state. The staff will
take the following actions to implement the recommendations beginning immediately.

     1.1 Ensure that all four schools we reviewed revise their schoolwide plans to
     include all required elements;

          • 	 The Office of School Improvement, Field Services Staff, will visit each of the
              four school districts visited during the audit. Staff will review the revised school
              improvement plan ensuring that all components are now included. This review
              will be completed by November 30, 2006.

     1.2 Develop and implement an annual desk review schedule of schoolwide
     plans for schools selected by MDE to determine whether they include all
     required elements;

          • 	 This recommendation, in connection with recommendation 1.3, will help Field
              Services staff develop and implement a comprehensive process for planning,
              implementation, and annual review of schoolwide plans. The desk audits will
                                    STATE BOARD OF EDUCATION

                 KATHLEEN N. STRAUS PRESIDENT. JOHN C. AUSTIN - VICE PRESIDENT 

               CAROLYN L. CURTIN - SECRETARY. MARIANNE YARED MCGUIRE - TREASURER 

                      NANCY DANHOF NASBE DELEGATE. ELIZABETH W. BAUER 

                             REGINALD M. TURNER. EILEEN LAPPIN WEISER 


                 608 WEST ALLEGAN STREET. P.O. BOX 30008 • LANSING, MICHIGAN 48909
                                www.michiqan.qov!mde • (517) 373-3324
                                                                                   Attachment
ED-OIGIA05GOO18                                                                   Page 12 of 12
           begin as part of this comprehensive strategy in the fall of 2007-08. In
           preparation for the desk audits, technical assistance materials will be developed
           and presentations conducted to ensure all districts with schoolwide buildings
           are aware of requirements related to this program.
       • 	 In 2007-08, Field Services staff will begin annual reviews of schoolwide plans
           through a desk audit process. Staff will review schools identified for
           improvement that are schoolwide, along with a random sample of other existing
           schoolwide programs, to equal 25% of the total schoolwide buildings in the
           state. It is anticipated that the fall of 2007-08 will parallel the implementation
           of a statewide school improvement planning template. This template will be
           used by all schools and districts in the state. It will have a strand that will
           include all required components of the Title I schoolwide and targeted
           assistance plans. With this implementation, it will be possible for consultants to
           electronically review the detail submitted in the plans. The system will include
           an error-checking function that will not allow submission of a school plan that
           does not include all required components. The desk audits then will be part of a
           comprehensive school improvement planning process aligned to the School
           Improvement Framework which will allow the work of the Field Services Unit to
           focus on technical assistance provided to schoolwide buildings.

    1.3 Provide guidance to all LEAs in Michigan on how to monitor schoolwide
    plans for all required elements; and

       • 	 The plan to increase monitoring of schoolwide plans includes a three-fold
           approach. Beginning the spring 2007, all facilitators for the schoolwide year of
           planning will participate in a two-day training conducted by Field Services
           consultants and partner educators from Michigan's intermediate school districts.
           This training will review all mandated components of a schoolwide plan and
           processes for effective planning strategies. The second component is the
           development of a comprehensive set of materials for use by districts for annual
           review of their schoolwide plan. The third component will be a mandatory
           technical assistance workshop for all existing schoolwide school improvement
           planning teams. This workshop will review the mandatory components and
           establish a plan review and revision timeframe for all existing schoolwide
           programs.

    1.4 Review, during its site visits to LEAs, all elements of the LEAs' schoolwide
    plans to determine whether (a) each LEA's policies and procedures ensure
    that schoolwide plans include all the required elements, and (b) those
    policies and procedures are being implemented.

       • 	 The Field Services Unit, Office of School Improvement, revised the On Site
           Review document immediately after the visit of the auditing team. All required
           components of the schoolwide plan have been added to the On Site Review
           document. The On Site Review requires that specific documentation be
           submitted to the Department three weeks prior to the visit by the On Site
           Review team. The team interviews the school improvement committee and
           determines the level of implementation for the plan at each On Site. Specific
           attention will be given to the ongoing evaluation components of the plan to
           ensure that all schoolwide plans are current and being implemented.


                                 STATE BOARD OF EDUCATION

              KATHLEEN N. STRAUS - PRESIDENT. JOHN C. AUSTIN - VICE PRESIDENT 

            CAROLYN L. CURTIN - SECRETARY. MARIANNE YARED MCGUIRE - TREASURER 

                   NANCY DANHOF - NASBE DELEGATE. ELIZABETH W. BAUER 

                          REGINALD M. TURNER. EILEEN LAPPIN WEISER 


              608 WEST ALLEGAN STREET. P.O. BOX 30008 • LANSING, MICHIGAN 48909
                             www.michiqan.qov/mde • (517) 373-3324
